AUDIT OF THE DRUG ENFORCEMENT ADMINISTRATION’S

                ACCOUNTING FOR

    PERMANENT CHANGE OF STATION TRANSFERS



            U.S. Department of Justice

          Office of the Inspector General

                   Audit Division



               Audit Report 14-01

                November 2013

 AUDIT OF THE DRUG ENFORCEMENT ADMINISTRATION’S

                 ACCOUNTING FOR

     PERMANENT CHANGE OF STATION TRANSFERS


                              EXECUTIVE SUMMARY


      The Drug Enforcement Administration (DEA) is the primary federal law
enforcement agency charged with enforcing the controlled substances laws
and regulations of the United States. The DEA routinely transfers personnel
among its domestic and international offices to accomplish its law
enforcement mission. This is done through permanent change of station
(PCS) transfers, which often involve numerous expenses, including air travel
for the transferee and dependents, shipment and storage of household
goods, compensation for the sale or purchase of a residence, and temporary
housing costs. As of January 23, 2013, the DEA’s fiscal year (FY) 2010 PCS
expenditures amounted to $35,745,853.1 On average, each PCS transfer
cost the DEA $45,015; the median cost for transfers that year was $34,455.

      We conducted an audit of the DEA’s PCS transfers for FYs 2010, 2011,
and 2012 to: (1) assess the adequacy of the DEA’s management of its PCS
transfer activities, and (2) assess the DEA’s controls over resources
expended on PCS transfers, including repayments required by those
employees who do not satisfy their continued service agreements.2

       We concluded that the DEA established sound practices for the
management of transfer activities and appeared to have adequate controls
over resources expended on PCS transfers. Of particular note, our testing of
PCS-related documents, which included expenditure records that included
582 voucher and invoice packages totaling more than $2 million, identified
only five discrepancies totaling $1,656; the remaining PCS expenditures
were allowable and in accordance with the General Services Administration’s
(GSA) Federal Travel Regulation (FTR).

     We also noted that, in addition to appropriately monitoring its primary
GSA-approved contractors, the DEA appeared to have taken initiative in its

       1
        FY 2010 is the most recent year for which DEA expenditure data is generally
complete because transferee PCS-related expenses are still accruing for transfers initiated in
FYs 2011 and 2012.
       2
          Our audit did not include an evaluation of the DEA’s justifications for the PCS
transfers or their appropriateness, and it did not assess the DEA’s use of, or expenses
relating to, temporary duty (TDY) assignments.
management of PCS transfer activities by negotiating reduced rates with
contractors, developing an electronic system for transfer activities, and
maintaining a library of DEA-specific PCS-related handbooks, resulting in
monetary savings for the government.




                                    - ii -
  AUDIT OF THE DRUG ENFORCEMENT ADMINISTRATION’S

                  ACCOUNTING FOR

      PERMANENT CHANGE OF STATION TRANSFERS


                                 TABLE OF CONTENTS


INTRODUCTION ................................................................................ 1


OIG Audit Approach ..............................................................................3

Overview of the PCS Process..................................................................4

PCS Process is Well-Established and its Oversight is Adequate ...................5

PCS Transfer Activity Controls are Adequate ............................................6

Conclusion ......................................................................................... 13


STATEMENT ON INTERNAL CONTROLS............................................ 14

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS...... 15

APPENDIX - OBJECTIVES, SCOPE, AND METHODOLOGY.................. 16

 AUDIT OF THE DRUG ENFORCEMENT ADMINISTRATION’S

                 ACCOUNTING FOR

     PERMANENT CHANGE OF STATION TRANSFERS


                                  INTRODUCTION


      The Drug Enforcement Administration (DEA) is the primary federal law
enforcement agency charged with enforcing the controlled substances laws
and regulations of the United States. The DEA operates 223 domestic and
86 international offices and consists of more than 9,500 employees.

      The DEA routinely transfers personnel among its domestic and
international offices to accomplish its law enforcement mission using
permanent change of station (PCS) transfers.3 PCS transfers can involve
numerous costs, including travel expenses, family relocation expenses,
shipment and storage of household goods, compensation for the sale or
purchase of a residence, and temporary and permanent housing costs.
Employees who undergo a PCS transfer are required to sign service
agreements which, if breached, require the employee to pay back the costs
of the PCS transfer.4

       On average, each PCS transfer in fiscal year (FY) 2010 cost the DEA
$45,015; the median cost for transfers that year was $34,455. FY 2010 is
the most recent year for which DEA expenditure data is generally complete
because transferee PCS-related expenses are still accruing for transfers
initiated in FYs 2011 and 2012. The number of PCS transferees and the
current total costs of these transfers for each fiscal year of our review period
are shown in the following exhibit.




       3
        Other mechanisms federal agencies use to transfer personnel, such as extended
temporary duty (TDY) assignments, were not within the scope of our audit.
       4
         Employees who complete an overseas assignment and then violate the service
agreement upon their return to the United States are not required to payback certain
expenses associated with their return to the United States as noted in the Federal Travel
Regulation ch. 302-3.101, Table F.
           EXHIBIT 1. DEA PCS TRANSFEREES AND EXPENDITURES

             INITIATED IN FISCAL YEARS 2010 THROUGH 2012

                        AS OF JANUARY 22, 20135

              FISCAL YEAR              2010              2011               2012

      Total PCS Transferees             810               718                674

           Total Expenditures      $35,745,853       $35,605,232        $23,557,896
      Source: DEA Office of Acquisition and Relocation Management

      There are multiple types of PCS transfers and numerous benefit
categories. The transfer categories and a selection of benefit categories are
described in the following exhibit.




       5
           While transfers are initiated during a specific fiscal year, expenditures and
obligations often span multiple fiscal years. For example, the home sale for a PCS transfer
initiated in FY 2012 may remain open until FY 2014. As a result, the FY 2010 figure
generally represents the total expenditures and will not increase considerably, while the
FY 2012 figure reflects a smaller percentage of completed transfers and will increase more
significantly.

                                           -2-
 EXHIBIT 2. DEA PCS TRANSFER TYPES AND BENEFIT CATEGORIES

       INITIATED IN FISCAL YEARS 2010 THROUGH 2012

                                          TRANSFER TYPES

                TYPE                       ACRONYM                       DEFINITION

                                                          A transfer from one domestic location to
         Domestic-to-Domestic                   DD
                                                          another domestic location

                                                          A transfer from a domestic location to a
          Domestic-to-Foreign                   DF
                                                          foreign location

                                                          A transfer from a foreign location to a
          Foreign-to-Domestic                   FD
                                                          domestic location

                                                          A transfer from one foreign location to another
           Foreign-to-Foreign                   FF
                                                          foreign location


                                      BENEFIT CATEGORIES

       BENEFIT CATEGORY                    ACRONYM                       DEFINITION
                                                          Transferees moved on a domestic-to-domestic
          House Hunting Trip                   HHT        basis are allowed to take a 10-day trip to
                                                          search for a new residence
                                                          Transferees and dependents are reimbursed
            En Route Travel                    ERT        for applicable costs when traveling from one
                                                          station to the next
                                                          Transferees are allowed reimbursement for
    Miscellaneous Expense Allowance            MEA        necessary expenses not covered in other
                                                          categories
                                                          Reimbursement for food and lodging expenses
                                                          while staying in a temporary location, such as
          Temporary Quarters                    TQ
                                                          a hotel, when waiting for permanent residence
                                                          to be ready
                                                          Transferees are allowed various
              Real Estate                       RE        reimbursements when selling or purchasing
                                                          real estate
                                                          Reimbursement for the transport and storage
 Household Goods and Storage In Transit     HHG and SIT
                                                          in transit of household goods

                                                          Transferees are reimbursed for the tax burden
    Relocation Income Tax Allowance            RITA
                                                          created by taxable entitlements

Source: OIG Analysis of the Federal Travel Regulation

OIG Audit Approach

      Given the high cost of PCS transfers, the variety of employee
PCS-related expenses, and the government’s current stringent fiscal climate,
we conducted an audit of the DEA PCS transfer program to assess the
program and identify any potential savings. The scope of the audit included
PCS transfers for FYs 2010, 2011, and 2012.


                                                -3-
      Our audit objectives were to: (1) assess the adequacy of the DEA’s
management of its PCS transfer activities; and (2) assess the DEA’s controls
over resources expended on PCS transfers, including repayments required
by those employees who do not satisfy their continued service agreements.
We reviewed the DEA’s PCS transfer process from the point where an
employee was selected to undergo a PCS transfer. Our audit did not include
analysis of the procedures and practices used by the DEA to determine the
frequency, necessity, or appropriateness of employee rotation or promotion
and selection decisions that resulted in PCS transfers. Nor did it include an
analysis of the DEA’s use of, or expenses relating to, temporary duty (TDY)
assignments.

Overview of the PCS Process

      The DEA’s Office of Acquisition and Relocation Management (FA) is the
primary office responsible for the PCS transfer process. The DEA’s Office of
Global Enforcement also participates in transferring DEA employees and their
families abroad by providing family liaison services, passport and visa
assistance, and required training coordination.

      As shown in the following exhibit, PCS transfers are managed by three
units within FA: (1) the Transportation Management Unit, (2) the Financial
Management Unit, and (3) the Relocation Management Unit.

                       EXHIBIT 3. DEA PCS PROCESS




  Source: OIG depiction of DEA information

      	 Transportation Management Unit – disseminates PCS information to
         the transferee, counsels each transferee regarding his or her
         specific needs, generates PCS orders that detail entitlements and
         benefits, and uses 10 domestic and 5 foreign contract carriers to
         transport transferee goods. The Transportation Unit also works
         with the Financial Management Unit to commit and obligate funds.

                                        -4-
       	 Financial Management Unit - commits, obligates, and de-obligates
          funds. The staff also processes third party payments to vendors.

       	 Relocation Management Unit - counsels employees about real
          estate entitlements and works with one of two real estate relocation
          contractors to initiate real estate transactions for eligible
          employees.

PCS Process is Well-Established and its Oversight is Adequate

      Our first objective was to assess the adequacy of the DEA’s
management of its PCS transfer activities. We found that the DEA had a
well-established process that it followed when guiding employees through
the PCS process. We also found that the DEA office responsible for PCS
transfers received oversight from multiple entities.

A Well-Established Process

        We found that the FA created and adhered to standard operating
procedures that govern its PCS process, employed a system of informing and
educating transferees about the process, and used electronic systems to
manage the process.6 FA specialists used tools to standardize employee
transfers, such as a standardized file organization and standard transfer
initiation e-mails, forms, and checklists. Transferees received standardized
PCS information from briefings and counseling provided by FA personnel,
and from the DEA intranet. FA also used a relocation database to create and
store PCS documents and track PCS transfer activities, and the Financial
Management Unit used the DEA accounting system to process PCS
expenditures and track PCS funds.

      In addition, FA maintained a library of detailed, DEA-specific
handbooks for domestic, foreign, and new employee PCS activities that are
comprehensive guides for transferees and contain explanations of
regulations, requirements, entitlements, and allowances. We compared the
DEA PCS handbooks to the applicable Federal Travel Regulation (FTR) and
found that the DEA handbooks adequately covered all appropriate
FTR guidance.7

       6
         The Relocation Tracking System is one of the electronic systems used by FA. FA
commissioned the development of the system to automate a variety of transfer functions.
       7
          The General Services Administration issues the FTR to manage the travel and
relocation policies for all federal civilian employees and others authorized to travel at
government expense. The codified FTR is contained in 41 C.F.R. chs. 300-304 (2013).

                                            -5-
Oversight from Multiple Entities

      We found that FA received oversight from the DEA Office of
Inspections (DEA Inspections), and that certain PCS expenditures were
reviewed by the DEA Office of Finance and the General Services
Administration (GSA).

      Approximately every 3 years, DEA Inspections conducts an on-site
inspection of FA’s activities. During this review, DEA Inspections spends 2 to
4 weeks on site and reviews a variety of areas, including PCS procedures
and expenditures. In years that DEA Inspections does not conduct a review,
FA must submit a self-inspection report. We reviewed a DEA Inspections
report and self-inspection reports prepared during our review period and
confirmed that they were conducted as described by DEA officials. The
reports did not identify any reportable weaknesses in the PCS program.

      In addition to the DEA Inspections-related oversight, FA-prepared
financial documents are reviewed by the DEA Office of Finance before they
are fully processed. We also confirmed that copies of processed third party
payments for the shipment of transferee goods were sent to GSA for post-
payment audits. According to a DEA official, these are sent on a monthly
basis and the GSA reviews these processed payments to ensure that all
payments for charges are accurate.

PCS Transfer Activity Controls are Adequate

       Our second objective was to assess the DEA’s controls over resources
expended on PCS transfers, including repayments required by those
employees who do not satisfy their continued service agreements. We found
that the DEA appropriately controlled the resources it expended on PCS
transfer activities.8 Specifically, we found that all the policies used by the
DEA for PCS expenditures are governed by the Federal Travel Regulation.
Additionally, we found that the DEA maintained an adequate segregation of
duties in processing PCS expenditures and monitoring the contractors it
employs to provide PCS-related services. We also found that the DEA
established and maintained a standard process for the repayment of
PCS-related costs owed by employees. Finally, when we conducted a
detailed review of a sample of 30 PCS files, we did not identify any
significant exceptions or negative trends.



       8
          Our audit did not include an evaluation of the DEA’s justifications for the PCS
transfers or their appropriateness, and it did not assess the DEA’s use of, or expenses
relating to, TDY assignments.

                                             -6-
Federal Travel Regulation Defines Standards

      We found that FA policies and practices related to PCS expenditures
are based on the FTR, which contains government standards for allowable
PCS-related expenditures.9 DEA officials stated that they refer to the FTR
when determining entitlements and the allowability of expenditures. Our
work revealed that the DEA abided by the FTR.

       In one area of the regulations, the Department of Justice (DOJ) had
established a standard that is more stringent than the FTR: the DOJ
directive states that the maximum number of days permitted for temporary
quarters subsistence expenses is initially limited to 60 days minus the
number of days used for a house-hunting trip, whereas the FTR permits up
to 120 days. We found that the DEA’s regulations were consistent with the
DOJ’s more stringent standard.

Appropriate Segregation of Duties

      We found that duties were appropriately segregated for PCS-related
expenditures paid directly to employees and those paid to third party
vendors. Duties are segregated between units within FA and units within the
Office of Finance for entitlement authorizations, commitments, obligations,
voucher review, and invoice payments. The Transportation Management
Unit prepares transferee PCS authorizations and determines the funding
commitment amount, while the Financial Management Unit obligates funds.
Transferees requesting reimbursement first submit vouchers to their local
supervisors for approval. Following supervisory approval, the voucher is
received, reviewed, and recorded by a unit within the Office of Finance. An
Office of Finance unit also thoroughly examines each voucher. During our
review of PCS files and records, we observed evidence of this Office of
Finance voucher review.

      Federal law requires federal agencies to verify the correctness of bills
received from carriers prior to payment.10 To fulfill this requirement, the
DEA contracts with an independent pre-payment audit company to review
the rates and services of carriers that provide movement and storage of




       9
         Our audit did not include an evaluation of the appropriateness of the PCS-related
expenditure limits that are specified in the FTR.
       10
            31 U.S.C. § 3726 (2006)

                                           -7-
goods services for PCS transfers.11 Invoices provided by third party vendors
are processed by the Financial Management Unit after being reviewed by the
pre-payment audit contractor. After receipt, one Financial Management Unit
staff member completes data entry into the financial system while another
approves the payment. Further, the Office of Finance completes an
additional review for accuracy and initiates payments and processes deposits
related to repayments. During our review of PCS files and supporting
documents, we saw evidence of the pre-payment audit company review of
invoices.

Adequate Monitoring of Contractors

       We found that FA uses GSA-approved contractors as appropriate for
the movement and storage of household goods and privately owned
vehicles, real estate relocation transactions, and pre-payment audits of
invoices related to shipping goods. FA monitors its principal contractors in a
variety of ways. According to an FA official, Relocation Management Unit
staff members speak with contractors on a daily basis and engage in formal
weekly meetings, as well as semi-annual meetings, to discuss the status of
transactions and contractor performance. The Relocation Management Unit
staff also has access to the contractors’ databases to view caseload
management. According to an official, the real estate contractors also
submit a weekly progress report. The contractors used by the
Transportation Management Unit are monitored using criteria such as
customer satisfaction and billing timeliness. We believe that these methods
for monitoring contractors are adequate.12

      In addition, in FY 2012, FA negotiated with its two real estate
relocation contractors to reduce the rate charged to the DEA, resulting in
monetary savings for the government. These contractors run guaranteed
home sale programs through which they work with transferees to market
real estate and facilitate a sale to a buyer, or if the home does not sell within
a reasonable timeframe, to purchase the home. According to the DEA, these
contractors are GSA-approved and work with multiple government agencies.


       11
          The pre-payment audit company (PPAC) reviews rates and amounts charged for
household goods shipments, shipments of vehicles, unaccompanied baggage shipments,
and storage-in-transit. The PPAC assesses excess weight issues and ensures the bill is in
compliance with the FTR and other applicable standards. The PPAC also reviews the
invoices for duplicate charges, ensures invoices have the proper weight tickets, and
assesses supplemental services.
       12
            Our audit included evaluating DEA’s efforts to monitor the PCS pre-payment
activities of these contractors but did not include evaluating security clearances or any other
matters involving the GSA-approved contractors.

                                            -8-
Sufficient Repayments Process

       Generally, personnel are eligible for relocation entitlements if they
agree to remain in government service for a specified period of time, with a
minimum agreement length of 1 year.13 However, if the service agreement
is violated for reasons within the employee’s control, the employee must
repay funds reimbursed to him or her, including any amounts paid to third
parties on behalf of the employee. For all PCS-related debt collection, FA
reviews data on a monthly basis for those DEA employees who have
separated from service. In the event of a match, FA sends the information
with a letter to the employee requesting payment. Debtors can provide
payment as instructed, can contact the Office of Finance to establish a
payment plan, or can request that the DEA Chief Financial Officer waive the
debt. If debtors disagree with the amounts owed, they can appeal the debt.
If debtors do not pay, the Office of Finance sends the debt to the
U.S. Department of the Treasury for collection.

        We found that FA staff created and adhered to standard operating
procedures for this process. On a monthly basis, an FA employee uses a
database to compare a record of non-active employees to a record of
employees who completed a PCS transfer within the previous 12 months. If
FA staff confirm that individuals did not remain in government service until
the end of the service agreement period and the agreement was breached,
FA confirms amounts expended for the PCS and prepares and issues the
initial debt notification letter to the employee. If no appeal or waiver
request is received from the employee, information on the amount owed is
forwarded to the Office of Finance to initiate the debt collection.

       Additionally, transferees are entitled to have goods shipped from a
prior home to a new home but are restricted to weight allowances. The
expenses incurred for the shipment of an employee’s goods are billed
directly to the DEA. If the shipment exceeds the maximum weight
prescribed, the DEA will pay the total charges, but the employee is required
to reimburse the government for the cost of any charges applicable to the
excess weight. For these excess weight shipments, a similar collection
process is followed. FA sends a letter with the amount owed and supporting
documentation to the employee. If no appeal or waiver request is received
from the employee, the excess weight charges are forwarded to the Office of
Finance to initiate the debt collection.



      13
         The 1-year minimum is established by the FTR. Senior Executive Service last
move home, employee return for separation, and the early return of an employee’s
dependent are transfer categories that do not necessitate a service agreement.

                                         -9-
      In our detailed review of a sample of 30 DEA PCS files, we identified
one instance, involving $3,796, in which the DEA exercised its collection
process.

       We examined the DEA’s efforts to identify service agreement violations
and to recoup monies owed to the government for those violations, as well
as instances of excess weight shipments. We obtained a list of separated
employees and compared it to a list of employees who had a PCS transfer.
Through this reconciliation, we identified 13 transferees in our review period
who left government service before completion of their service agreements.
We compared our independently created list to FA’s service agreement
violators list, and we found that the transferees we identified through our
independent reconciliation were also identified by FA, and FA had initiated its
collection process for each of these transferees.

      In addition, we reviewed the population of 76 cases for which excess
weight household goods shipments occurred. We selected and reviewed a
sample of 10 of the 89 combined service agreement violators and excess
weight instances and confirmed that repayments were made or were in
process. For the 10 cases we reviewed, we found that FA and the Office of
Finance both used an established process for recouping payments owed from
transferees. Therefore, it appears that FA appropriately identified service
agreement violators and followed up on excess weight repayments. Based
on the audit work we performed in this area, we believe the DEA adequately
pursued debts owed to the government.

Review of PCS Expenditures

      We reviewed a judgmental sample of 30 PCS files for 30 DEA
transferees, with PCS costs amounting to $2,181,267, or approximately
2 percent of the total amount spent on PCS transfers during our review
period.14 As shown in Exhibit 4, each file reviewed was made up of
numerous transactions.15




       14
           We applied judgmental sampling design to obtain broad exposure to numerous
facets of the PCS program, including the number of transferee dependents, transferee job
series, transfer types (domestic or foreign), the expenditures related to the transfer activity,
and a variety of benefit categories. Appendix I contains additional information regarding
our sample selection and testing methodology.
       15
            While transfers are initiated during a specific fiscal year, expenditures and
obligations often span multiple fiscal years. As a result, obligations that remain open may
still incur transfer costs.

                                            - 10 -
    EXHIBIT 4. DETAILED REVIEW OF EXPENDITURES ASSOCIATED 

                     WITH 30 DEA PCS FILES


         MOVE DATA                           BENEFIT CATEGORIES                           TESTING

                                                                               NUMBER
                                                                  HHG                        NUMBER OF
 TOTAL SPENT ON   MOVE                                                            OF
                          FY     HHT   ERT   MEA    TQ      RE    AND   RITA               VOUCHERS WITH
 PCS ACTIVITY16   TYPE                                                         VOUCHERS
                                                                  SIT                       EXCEPTIONS
                                                                                TESTED
    $337,095         DD   2011    X     X     X     X       X      X     X        43                1
    $312,905         DD   2011    X     X     X     X       X      X     X        39                1
    $306,464         DD   2011    X     X     X     X       X      X     X        33
    $297,713         FD   2011          X     X     X       X      X     X        33                1
    $265,023         DD   2011    X     X     X     X       X      X     X        34
      $74,202        DD   2010    X     X     X     X       X      X     X        54
      $70,480        FF   2010          X     X     X              X     X        14
      $52,032        FD   2012          X     X     X       X      X     X        40
      $48,953        DD   2012    X     X     X     X       X      X     X        27
      $44,424        DF   2010          X     X     X              X     X        20
      $44,333        DD   2011    X     X     X     X              X     X        31
      $41,042        DF   2012          X     X     X              X     X        17
      $33,423        FD   2010          X     X     X              X     X        16
      $33,174        DF   2012          X     X     X              X     X        13                2
      $31,359        FD   2011          X     X     X              X     X        26
      $28,956        DF   2010          X     X     X              X     X        13
      $27,118        FD   2012          X     X     X       X            X        24
      $23,474        DF   2010          X     X                    X     X        16
      $18,843        DF   2012          X     X                    X     X        15
      $18,137        DF   2012          X     X     X              X     X        16
      $13,597        DF   2012                                     X               1
      $13,200        DD   2012    X     X                   X      X     X        20
      $13,027        FD   2012                                     X               1
      $10,713        DD   2011    X     X     X                    X     X        15                1
       $7,098        DD   2012                                     X               1
       $6,166        DD   2011          X                          X     X         7
       $2,812        DD   2011          X                          X     X         6
       $2,388        DD   2011          X                          X               4
       $2,041        DD   2012          X                          X               2
       $1,075        DD   2010                              X                      1
  $2,181,267                      9    26    21     18      11    28    24       582                6
Source: DEA Office of Acquisition and Relocation Management and OIG analysis

      We reviewed supporting documents, including obligation and
commitment documents, travel orders, authorizations, travel vouchers,
receipts, invoices, tax documents, and lodging and credit card bills. The few
exceptions we identified are listed below.



        16
           To ensure a judgmental sample representative of a variety of aspects of the DEA
PCS program, our sample of 30 files included both those with a range of PCS expenditures,
as well as files for specific PCS-funded activities such as the early return of a transferee
dependent and the shipment of a transferee vehicle.

                                                   - 11 -
     	 A transferee claimed and was reimbursed twice for the same airfare
        amounting to $361. Following our review, DEA officials stated that
        they would initiate collection procedures for this amount, and we
        subsequently confirmed that the DEA processed a repayment from
        the employee to correct this discrepancy.

     	 A transferee claimed and was reimbursed $308 for groceries on the
        final day of temporary housing. Following our review, DEA officials
        stated that they would initiate collection procedures, and we
        subsequently confirmed that the DEA processed a repayment from
        the employee to correct this discrepancy.

     	 A transferee claimed and was reimbursed $565 for the installation
        of gas services. However, the file indicated that the employee
        submitted an estimate instead of an invoice and proof of payment.
        Following our review, DEA officials contacted the transferee to
        request a receipt for the installation services. We subsequently
        confirmed that the DEA obtained the receipt for the expenditure.

     	 A transferee claimed and was reimbursed for two expenditures
        totaling $327 without providing supporting documentation for the
        expenses. Following our review, DEA officials stated that they
        would initiate collection procedures for this amount, and we
        subsequently confirmed that the DEA processed a repayment from
        the employee to correct this discrepancy.

     	 A transferee claimed and was reimbursed $95 for the purchase of
        alcohol, which is not allowable according to the FTR. According to
        DEA, this was an oversight. We subsequently confirmed that the
        DEA processed a repayment from the employee to correct this
        discrepancy.

       Overall, we found that almost all PCS-related expenditures in our
sample were allowable and in accordance with DEA policy and the FTR.
None of the minor exceptions detailed above are material, and we did not
identify any areas for potential cost savings.

Temporary Quarters

      Temporary Quarters (TQ) is a PCS allowance category that permits
authorized transferees reimbursement for expenses incurred during the
interim period between leaving their prior home and moving into their new
home. Expenses may include lodging, groceries, meals, laundry, and dry
cleaning. Transferees are authorized TQ for 10-day, 30-day, or 60-day

                                  - 12 -
periods depending on the origin and destination of the PCS transfer, and
they may request authorization for additional periods of TQ beyond the
amount initially approved. To request an additional period of TQ,
transferees must submit a written request to FA at least 2 weeks prior to
expiration of the authorized TQ period specifying the number of additional
days needed, the amount of TQ expenses incurred to date, and a
justification for the extension with accompanying supporting documentation.
We found that the DEA’s policy was in accordance with DOJ policy regarding
TQ.

       In our sample of 30 transferees, we found that 18 used TQ as part of
their PCS transfers. Of these 18 transferees, 10 requested and were
granted TQ extensions. We reviewed these 10 requests to determine
whether the DEA followed its policy in granting TQ extensions. We found
that 10 of the 10 approved extension requests we reviewed did not contain
the justification for the extension or supporting documentation for the
extension, both of which are required by DEA policy. We discussed this
matter with DEA officials, and the DEA subsequently updated its PCS
handbooks and its standard operating procedures for processing TQ
extension requests to meet the intent of the DEA’s TQ policy.

Conclusion

      For this audit we interviewed personnel, assessed procedures for
managing and accounting for PCS transfer activities, reviewed a sample of
transfer files, and reviewed repayments procedures. We found the DEA’s
practices and procedures for PCS transfer activities were in accordance with
the FTR. Based on our review, it appears the DEA established suitable
practices for the management of PCS activities and operated within an
adequate system of internal control. Additionally, we found few
discrepancies in the expenditure records we reviewed.




                                   - 13 -
              STATEMENT ON INTERNAL CONTROLS

      As required by the Government Auditing Standards, we tested, as
appropriate, internal controls significant within the context of our audit
objective. A deficiency in an internal control exists when the design or
operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to timely prevent or
detect: (1) impairments to the effectiveness and efficiency of operations,
(2) misstatements in financial or performance information, or (3) violations
of laws and regulations. Our evaluation of the DEA’s internal controls was
not made for the purpose of providing assurance on the agency’s internal
control structures as a whole. DEA management is responsible for the
establishment and maintenance of internal controls.

      Through our audit testing, we did not identify any deficiencies in the
DEA’s internal controls that are significant within the context of the audit
objectives and that we believe would affect the DEA’s ability to effectively
and efficiently operate, to correctly state financial and performance
information, or to ensure compliance with laws and regulations.

       Because we are not expressing an opinion on the DEA’s internal
control structure as a whole, this statement is intended solely for the
information and use of the DEA. This restriction is not intended to limit the
distribution of this report, which is a matter of public record.




                                    - 14 -
                  STATEMENT ON COMPLIANCE

                 WITH LAWS AND REGULATIONS


      As required by the Government Auditing Standards, we tested, as
appropriate given our audit scope and objectives, selected transactions,
records, procedures, and practices, to obtain reasonable assurance that DEA
management complied with federal laws and regulations for which
noncompliance, in our judgment, could have a material effect on the results
of our audit. DEA management is responsible for ensuring compliance with
applicable federal laws and regulations. In planning our audit, we identified
the following regulation that concerned the operations of the auditee and
that was significant within the context of the audit objective:

      Federal Travel Regulation, 41 C.F.R. chs. 300-304 (2013)

      Our audit included examining, on a test basis, the DEA’s compliance
with the aforementioned regulation that could have a material effect on the
DEA’s operations, through examining DEA PCS documentation, reviewing
DEA inspection reports, and interviewing DEA personnel. Nothing came to
our attention that caused us to believe that the DEA was not in compliance
with the aforementioned regulation.




                                   - 15 -
                                                                  APPENDIX

           OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

      The objectives of our audit were to: (1) assess the adequacy of the
DEA’s management of its PCS transfer activities; and (2) assess the DEA’s
controls over resources expended on PCS transfers, including repayments
required by those employees who do not satisfy their continued service
agreements.

Scope and Methodology

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives. The scope of our audit was the DEA’s PCS transfer activities
from FY 2010 through FY 2012.

      To accomplish our audit objectives, we interviewed 16 officials from
the DEA, including officials from the Office of Acquisition and Relocation
Management, Office of Finance, Human Resources Division, Office of
Resource Management, Office of Professional Responsibility, and the
Operations Division. We also interviewed an official from the DOJ Justice
Management Division’s (JMD) Travel Services Group to determine if JMD has
any involvement in the DEA PCS process. In addition, we reviewed relevant
portions of the Federal Travel Regulation, DOJ policies, and documentation
related to the DEA PCS process, including contractor documentation,
electronic communications, and internal policies and procedures used by the
DEA to govern its PCS process. We also obtained and reviewed the Office of
Acquisition and Relocation Management’s two most recent self-inspection
reports and the DEA Inspection Division’s most recent report. We reviewed
these reports for information relevant to PCS transfers and also to identify
areas of risk.

       Our audit did not include analysis of the procedures and practices used
by the DEA to determine the frequency, necessity, or appropriateness of
employee rotation or promotion and selection decisions that resulted in PCS
transfers. Nor did it include an analysis of the DEA’s use of, or expenses
relating to, temporary duty (TDY) assignments, or an evaluation of the

                                    - 16 -
appropriateness of the PCS-related expenditure limits that are specified in
the FTR.

DEA PCS Handbook Review

      The DEA uses Domestic, Foreign, and New Employee Handbooks to
provide an overview of the authorized benefits and allowances eligible
employees are entitled to upon embarking on a PCS transfer. We compared
the DEA’s handbooks to the FTR to ensure guidance conveyed in the DEA’s
handbooks is allowable according to federal regulation. Furthermore, to
assist in understanding the DEA’s facilitation of PCS transfers, we reviewed
select guidance from the DEA’s Transportation Standard Operating
Procedure and DEA policies and procedures governing PCS commitments,
obligations, and third party payments.

Transfer Universe

      We obtained and analyzed data related to DEA employee PCS activity
for FY 2010 through FY 2012. According to data we received, there were
2,202 actions related to PCS during that period. These include the PCS
moves themselves, as well PCS-related categories that the DEA lists
separately, such as when the transferee returns to the U.S. for separation
purposes and the return of family members to the United States prior to a
transferee’s return. While the DEA lists these categories separately, they
not only are a byproduct of a PCS move, but they also are funded by the
same budget. Therefore, we included these actions within our scope. We
obtained data on the types of move, origins, destinations, employee
information, number of dependents, and expenditures.

Sample Selection

      From the 2,202 PCS actions that occurred during our review period, we
selected a judgmental sample of 30 transferees. We selected a sample that
adequately represented various aspects of the PCS universe. Judgmental
sampling design was applied to obtain broad exposure to numerous facets of
the PCS program. This non-statistical sample design does not allow for
projection of the test results to all PCS expenditures or internal controls and
procedures. We selected transfers with zero dependents as well as multiple
dependents, basic and special agent transferees as well as non-law
enforcement employees, both domestic and foreign transfers, and included
transfers that represented a variety of benefit categories. The sample also
included transferees from each of the fiscal years within our scope. In total,
as of January 22, 2013, the DEA PCS program had expended $94,908,983
on PCS transfers for FYs 2010 through 2012. During our review of 30 PCS

                                    - 17 -
transferees, we tested 582 voucher and invoice packages, which amounted
to $2,181,267.

Expenditure Records File Testing

       We obtained and reviewed all available supporting documentation for
all the expenditures within each of the 30 PCS transfers sample to ensure
compliance with laws, regulations, and DEA policy. We also analyzed all
documentation to support that the DEA provided proper oversight and
approval for PCS-related expenditures. To accomplish this, we examined
voucher packages from transferees, invoices sent by third party contractors,
internal paperwork prepared and maintained by the DEA, and DEA
communications with transferees.

Repayments Testing for Service Agreements and Excess Weight Shipments

      We examined the DEA’s efforts to identify service agreement violations
and to recoup monies owed to the government for those violations, as well
as instances of excess weight shipments. We obtained a list of employees
who separated from the DEA and compared it to a list of employees who had
a PCS transfer. Through this reconciliation, we identified employees who left
the DEA before completion of their service agreements. We compared our
independently created list to FA’s service agreement violators list. There
were a total of 13 service agreement violators during our review period. In
addition, we reviewed the population of 76 cases, identified to us by the
DEA, for which excess weight household goods shipments occurred. We
selected and reviewed a sample of 10 of the 89 combined service agreement
violators and excess weight instances occurring during our review period.

       We did not perform an independent, overall assessment of the
reliability of the data provided because we used the data for informational
and contextual purposes to support our overall conclusions. We performed
testing to source documents to assess aspects of the management of PCS
transfer activities and the controls over PCS resources. The data did not
provide the sole basis of our findings.




                                   - 18 -
